Lo
I

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-332
MAGGY HURCHALLA,
Petitioner,
v.
LAKE POINT PHASE I, LLC &
LAKE POINT PHASE II, LLC,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICI CURIAE
BULLSUGAR.ORG, CONSERVATION ALLIANCE OF ST. LUCIE COUNTY, FLORIDA
WILDLIFE FEDERATION, FRIENDS OF THE EVERGLADES, MARINE RESOURCE
COUNCIL OF EAST FLORIDA, MARTIN COUNTY CONSERVATION ALLIANCE, SMALL
WORLD ADVENTURES, LLC, THE PEGASUS FOUNDATION, AND WATERKEEPERS,
FLORIDA IN SUPPORT OF THE PETITIONER MAGGIE HURCHALLA in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 5443 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 14th day of October, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

orn Kone 0 theo Quant he

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 40248
